          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Management Alert
Review of Internal Controls for
Protecting Non-Public Information at
the Federal Energy Regulatory
Commission




DOE/IG-0906                        April 2014
                              Department of Energy
                                 Washington, DC 20585
                                       April 9, 2014

MEMORANDUM FOR THE ACTING CHAIRMAN, FEDERAL ENERGY
               REGULATORY COMMISSION


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  Management Alert: Review of Internal Controls for Protecting
                          Non-Public Information at the Federal Energy Regulatory
                          Commission

BACKGROUND

In March 2014, the Department of Energy (Department) Office of Inspector General
initiated a review of internal controls for protecting non-public information at the Federal
Energy Regulatory Commission (Commission). The review was initiated in response to
an alleged leak of modeling studies exposing certain power grid vulnerabilities and of
non-public information relating to the investigation of the April 2013 attack on the
Pacific Gas and Electric Company’s Metcalf substation located just south of San Jose,
California. Information regarding the alleged leak was communicated to us by the
Commission’s Designated Agency Ethics Official. Further, we received a letter from the
Chairwoman and Ranking Member of the Senate Energy and Natural Resources
Committee requesting that we review the same matter.

IMMEDIATE CONCERN

The Department’s subject matter experts have confirmed that at least one electric grid-
related presentation created by Commission staff should have been classified and
protected from release at the time it was created. Based on preliminary information, we
determined that the presentation was accessible to, and in specific instances, was viewed
and handled by Commission employees who may not have had personnel security
clearances and thus, were not fully aware of their obligation to protect the information.
Similarly, the document was reported to have been maintained on portable electronic
equipment and transmitted via unsecured means. Finally, the document, and/or the
essence of its contents, may, in whole or in part, have been provided to both Federal and
industry officials in unclassified settings. The methods used in creating and distributing
this document led us to the preliminary conclusion that the Commission may not possess
adequate controls for identifying and handling classified national security information.
                                            2


As you are aware, the materials in question raise concerns with the security and integrity
of our Nation’s critical energy infrastructure, including the Nation’s power grid. We are
especially concerned with reports that the document that was not properly classified and
may currently be stored on unclassified Commission servers, as well as on current and
former Commission employees’ desktop computers, laptops, portable electronic devices,
and copiers. These are the main reasons for the urgency of this management alert.

RECOMMENDATIONS

Although the analysis on which this alert is based is preliminary, we have concluded that
the Commission should take immediate action to ensure that the information referred to
in this management alert is afforded maximum protection. Consequently, we recommend
that the Acting Commission Chairman:

   1. Move immediately to protect the information in question by identifying and
      securing any/all source data, studies and modeling material, including supporting
      reports and presentations. The search for such information should be
      comprehensive, including hard copy data and information stored or transmitted
      via email and all electronic systems which contain relevant information. In the
      case of electronic data, all systems (to include copiers, client computers, handheld
      and/or tablets as well as email and other servers) containing data related to or
      supporting the information should be taken out of service and segregated from
      unclassified networks until the actions taken in Recommendation 2 are complete.

   2. Immediately seek assistance from appropriate program/staff offices within the
      Department of Energy, or any other Federal entity with appropriate original
      classification authority in this matter, to ensure that the information in question
      and any associated source material, reports and/or presentations are properly
      classified and secured. As necessary, assistance should also be obtained to ensure
      that any required remedial action is completed expeditiously (i.e.
      computer/electronic device sanitizing, secure storage of any information deemed
      to be classified, etc.).

   3. Ensure that all current and former handlers of the material are fully apprised and
      acknowledge their duty to protect all classified information.

   4. Segregate and secure all classified information discovered during the searches
      conducted pursuant to Recommendation 1 in an approved classified repository.
      Such data should also be made available to Office of Inspector General employees
      engaged in the on-going review.
                                            3


PATH FORWARD

Please advise us of the actions the Commission plans to take with regard to the
recommendations. The Office of Inspector General’s review is ongoing.

We appreciate your cooperation in this matter.

MANAGEMENT REACTION

Federal Energy Regulatory Commission (Commission) Acting Chairman LaFleur
indicated to us that she has reviewed the management alert and has instructed
Commission staff to implement its recommendations promptly, and to give them top
priority.
